NO. 20-333
In the

Supreme Court of the United States
BOZEMAN FINANCIAL LLC,
Petitioner,
V.

FEDERAL RESERVE BANK OF ATLANTA, ET AL.
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 25th day of November, 2020, copies of the Brief in Opposition were sent
to:
Scott E. Gant
Boies Schiller Flexner LLP
1401 New York Ave., NW
Washington, DC 20005
sgant@bsfllp.com
Respectfully submitted,

Arn Jacobsen

